Audit of USAID/Morocco’s Management of
Activities Under the Middle East Partnership
Initiative

Audit Report Number 6-608-05-001-P

February 21, 2005




                     Cairo, Egypt
February 21, 2005


MEMORANDUM
FOR:           Director, USAID/Morocco, Monica Stein-Olson

FROM:          Acting Regional Inspector General/Cairo, Lloyd J. Miller /s/

SUBJECT:       Audit of USAID/Morocco’s Management of Activities Under the Middle
               East Partnership Initiative (6-608-05-001-P)

This memorandum transmits our final audit report on the subject audit. In finalizing the
report, we considered your comments on our draft report included as Appendix II.

This report includes one recommendation to implement alternative approaches to verify
the accuracy of performance results reported by the implementers. In your written
comments, you concurred with the recommendation and proposed an appropriate action
to address our concerns. Therefore, we consider that a manage ment decision has been
reached on the recommendation. When this action is completed, please coordinate final
action on the recommendation with USAID’s Office of Management Planning and
Innovation (M/MPI).


I appreciate the cooperation and courtesy extended to my staff during the audit.
This page intentionally left blank.
           Summary of Results............................................................................................. 5
Table of
Contents   Background .......................................................................................................... 5

           Audit Objectives .................................................................................................. 6

           Audit Findings ..................................................................................................... 7

                      What is the status of USAID/Morocco’s Middle East
                      Parternship Initiative activities?............................................................... 7

                      Are USAID/Morocco’s Middle East Partnership
                      Initiative activities meeting their objectives?......................................... 12

                                 Need to Establish Performance Indicators................................. 12

                                 Need for Activities to Be Further Along.................................... 13

                                 Need to Improve Monitoring and Data Quality......................... 14

           Other Matters ..................................................................................................... 15

           Evaulation of Management Comments.............................................................. 16

           Appendix I—Scope and Methodology .............................................................. 17

           Appendix II—Management Comments ............................................................. 19




                                                                                                                                     3
This page intentionally left blank.




                                      4
Summary of   The Regional Inspector General/Cairo audited USAID/Morocco’s management of
Results      activities under the Middle East Partnership Initiative to (1) determine the status
             of the activities, and (2) determine if the activities were meeting their objectives.
             (See page 6)

             As of September 30, 2004, USAID/Morocco was responsible for awarding and
             managing $12.5 million programmed across 17 activities that linked to the broad
             goals outlined under the economic, political, and education reform initiatives of
             the Middle East Partnership Initiative. (See page 7)

             We could not determine if these activities were meeting their objectives because:

                •   USAID/Morocco had no performance indicators to measure expected
                    results for six of the activities. (See page 12)
                •   USAID/Morocco’s strategic objectives were in beginning stages of
                    implementation. (See page 13)
                •   USAID/Morocco had not validated the performance data reported by
                    recipients. Therefore, we could not rely on the Mission’s controls for
                    monitoring and evaluating the accuracy of the data. (See page 14)

             Although we were unable to determine whether the activities were meeting their
             objectives, we observed five activities where the recipients had progressed in
             accomplishing specific tasks outlined within the statements of work of the
             individual awards. (See page 12)

             We recommended that USAID/Morocco implement alternative approaches to
             verify the accuracy of performance results reported by the implementers. (See
             page 15)

             In responding to this report, USAID/Morocco agreed with the recommendation.
             Furthermore the Mission stated that it would procure the services of an expert in
             monitoring and evaluation who would select discrete and measurable indicators
             based on the proposals and work plans and work with Middle East Partnership
             Initiative implementers to report quarterly against these indicators. Therefore, we
             conclude that a management decision has been reached. Appendix II contains
             USAID/Morocco’s comments in their entirety. (See page 19)


Background   In November 2003, the U.S. President outlined a new policy approach for
             freedom in the Middle East. The Middle East Partnership Initiative is the primary
             diplomatic policy and development programmatic tool to support this policy. The
             Near Eastern Affairs Bureau, under the Department of State, designed this
             initiative to support economic, political, and educational reform efforts in the



                                                                                                 5
             Middle East and champion opportunity for all people of the region, especially
             women and youth. To accomplish this, the Department of State scrutinized the
             ongoing efforts and existing programs in the region and enhanced the areas with
             additional funding. Also, the Department of State, in May 2004, issued a program
             announcement seeking new and innovative proposals to promote and support
             positive change in the Middle East and North Africa. In addition, the
             Administration committed $129 million to MEPI ($29 million in fiscal year 2002
             and $100 million in fiscal year 2003). This funding is in addition to other
             assistance provided annually to the Middle East and North Africa.

             In 2003, the Department of State and USAID jointly reviewed the strategic
             direction of USAID/Morocco’s activities under the Economic Support Fund and
             its specific programs to bring them in line with the goals and objectives of MEPI.
             The review resulted in significant changes in the level of funding of Economic
             Support Funds requested in USAID/Morocco’s congressional budget justification
             for fiscal year 2005. During fiscal years 2003 and 2004, USAID awarded and
             implemented activities for MEPI approved by the Department of State.

             MEPI impacted USAID/Morocco in several ways. First, as mentioned above,
             USAID/Morocco aligned its overall strategic direction to contribute towards
             MEPI objectives outlined by the Department of State. USAID/Morocco designed
             a new strategic plan covering fiscal years 2004 through 2008. It focused on
             building sustainable economic growth activities in three areas:

                •   increasing economic opportunities for all Moroccans through free trade
                    and investment;
                •   preparing the relevant workforce for the new Moroccan economy; and
                •   enhancing the responsiveness of the Moroccan government to the
                    priorities of its citizens.

             Second, USAID/Morocco was responsible for the award and implementation of
             17 activities for MEPI that totaled $12,459,000 allocated from fiscal year 2002
             and fiscal year 2003 appropriations. Third, in addition to the USAID/Morocco
             managed activities, the Mission also provided field support and assistance for
             regional projects awarded by USAID bureaus in Washington D.C.


Audit        We conducted this audit as part of the Office of Inspector General’s fiscal year
Objectives   2005 audit plan to answer the following questions:

                •   What is the status of USAID/Morocco’s Middle East Partnership Initiative
                    activities?

                •   Are USAID/Morocco’s Middle East Partnership Initiative activities
                    meeting their objectives?


                                                                                             6
                 Appendix I contains a discussion of the audit's scope and methodology.


                 In the below section, we describe the status of USAID/Morocco’s Middle East
Audit Findings
                 Partnership Initiative (MEPI) activities. In regard to the second audit objective,
                 we could not determine if USAID/Morocco’s MEPI activities were meeting their
                 objectives for the following reasons:

                    •   Six of 17 activities did not have defined performance indicators to
                        measure expected results.
                    •   Three of the 17 activities, representing 34 percent of the total funding,
                        were not awarded or started as of September 30, 2004.
                        The remaining 8 of the 17 activities supported interim objectives that were
                        in early stages of performance and, therefore, were premature to assess
                        results.
                    •   USAID/Morocco had not validated performance data reported by
                        recipients. Therefore, we could not rely on the Mission’s controls for
                        monitoring and evaluating the accuracy of the data.

                 What is the status of USAID/Morocco’s MEPI activities?

                 As of September 30, 2004, USAID/Morocco was responsible for 17 funded
                 activities, which linked to the broad goals outlined under the economic, political,
                 and education reform initiatives of MEPI. USAID/Morocco programmed the
                 funding to:

                    •   accomplish specific objectives within the framework of individual awards;
                    •   initialize activities in support of the USAID/Morocco’s new strategic
                        objectives for economic growth, education, and democracy and
                        governance; and
                    •   support existing activities under the USAID/Morocco’s strategic
                        objectives.
                 The following table summarizes the funding and activity levels under
                 USAID/Morocco’s responsibility.




                                                                                                  7
                     Table 1: USAID/Morocco MEPI Activities
                    as of September 30, 2004 (Data not audited)
                                 Number of
        Strategic Objective      Activities     Allocated                     Obligated
    Economic Growth                   8          $6,233,000                    $4,233,000
    Democracy and Governance          6          $3,286,000                    $1,836,000
    Education                         3          $2,940,000                       $940,000
    Total                            17         $12,459,000                    $7,009,000

Economic Growth

Under USAID/Morocco’s strategic objective for economic growth,
USAID/Morocco received $6,233,000 for eight MEPI activities to facilitate
successful negotiation and implementation of the Free Trade Agreement 1 with the
United States. USAID and the Department of State designed projects to help
Morocco respond to the challenges and opportunities of the Free Trade
Agreement. This included creating jobs and investment opportunities in high
value-added products, agribusiness, rural tourism, and other sectors to help
address specific challenges in the agriculture sector, and to take full advantage of
the new business opportunities offered by the Free Trade Agreement. Activities
were designed to directly link to the strategic objective for economic growth.

To stimulate new business opportunities, USAID/Morocco awarded a $2,850,000
cooperative agreement to prepare export-ready small and medium enterprises in
Morocco to take advantage of the Free Trade Agreement. This activity directly
supported USAID/Morocco’s intermediate results objective, “New Business
Opportunities Expanded.” Furthermore, this activity supported a key MEPI goal
to help enterprises take advantage of increased trade opportunities and efforts that
help vulnerable economic sectors and businesses adapt to the new commercial
environment.




1
 U.S. Trade Representative and Minister-Delegate of Foreign Affairs and Cooperation signed the
U.S.-Morocco Free Trade Agreement on June 15, 2004.


                                                                                             8
         Photograph taken by Regional Inspector General/Cairo office on October
         19, 2004, of the Director General of International Executive Service
         Corps with USAID/Morocco representative and Office of Inspector
         General Auditors displaying Moroccan export ready products


Furthermore, USAID/Morocco awarded a $1,033,000 contract to support the
development and marketing of new rural tourism products. This activity
pre-dated MEPI in that the Mission had a tourism project funded under the U.S.
North Africa Economic Partnership. USAID/Morocco focused the fiscal year
2002 funds on private sector and non-traditional destinations, including rural,
cultural and natural attraction tour products. This activity directly supported the
Mission’s intermediate results under its economic growth objectives.

In addition, USAID/Morocco programmed $1,000,000 to initia te increased
activities under its new strategic objective, “Increased Productivity in Irrigated
Agriculture & Agribusiness.” This activity aimed to increase rural incomes by
providing technical assistance to the public and private sectors and to move the
agriculture sector towards the cultivation of higher value-added crops.
USAID/Morocco was in the pre-award phase of this activity as of
September 30, 2004. USAID/Morocco had no results to report to date.

Democracy and Governance

USAID/Morocco allocated $3,286,000 for MEPI to support the Mission’s
strategic objective for democracy and governance programmed across six
activities.    USAID and the Department of State approved the new
USAID/Morocco Democracy and Governance program, “Improved Government
Responsiveness to Citizens,” financed by Economic Support Funds beginning in
fiscal year 2005. To avoid a gap in the Mission’s democracy programs for fiscal
year 2004, USAID provided funding for this program with funds for MEPI. As of
September 30, 2004, USAID/Morocco was in the planning phase of developing a
results framework for this new strategic objective.




                                                                                  9
Of the total $3,286,000 allocated for MEPI activities, USAID/Morocco
programmed $1,200,000 to begin implementation of the initial activities under its
new strategic objective. USAID/Morocco completed the award of this activity in
September 2004. Therefore, the Mission had no results to report to date.

Furthermore, USAID/Morocco awarded three activities totaling $1,115,000 to
directly support MEPI’s political reform objectives, activities which focused on
election assistance and political party strengthening, development of
parliamentary skills, and legal and judicial reform. These activities did not have
any direct link to the Mission’s special objective under its prior democracy and
governance initiatives.

Lastly, USAID/Morocco increased funding on two existing projects under the
Mission’s prior 2000-2004 strategic plan, which promoted women’s rights
advocacy in Morocco and contributed to building collaborative communities.

Education

USAID/Morocco allocated $2,940,000 for MEPI to support the Mission’s
strategic objective for education programmed across three activities.

Of the $2,940,000, USAID/Morocco programmed $2,000,000 to support the new
education strategy presented in the Mission’s 2004-2008 country strategic plan.
As of September 30, 2004, USAID/Morocco was in the pre-award stages of this
activity. Therefore, the Mission had no results to report to date.

USAID/Morocco programmed the remaining $940,000 during fiscal years 2003
and 2004 across two activities supporting education for women.

Under USAID/Morocco’s existing girl’s scholarship program, USAID/Morocco
used $540,000 to expand existing scopes of work. A local non- government
organization, previously received funding to provide rural dormitories and
education scholarships to girls in middle school. With the additio nal funding, this
organization provided 100 additional girls, living in rural areas, the opportunity to
attend middle school. Also, USAID/Morocco reported in its Annual Report that
the highly successful “Scholarships for Success” program expanded considerably
in fiscal year 2003. This non- governmental organization increased the number of
homes from 14 to 19 with plans to open an additional 4 during fiscal year 2005.
USAID/Morocco planned to fund this project through 2007 in support of MEPI.
The non- governmental organization’s achievements through the end of fiscal year
2003 directly contributed to the Mission’s results reported under the Strategic
Objective “Increased Attainment of Basic Education among Girls in Selected
Rural Provinces”.




                                                                                  10
                 Photograph taken by Regional Inspector General/Cairo office
                 on October 20, 2004, of a dormitory room funded through
                 local Scholarship for Success Program – Tnime Chtouka,
                 Morocco.

In addition, a U.S.-based non-profit organization had an existing grant with
USAID for educating mothers on hygiene skills necessary to reduce the risk of
exposure to trachoma, an eye disease. USAID awarded this organization an
additional $400,000 grant to educate women in the province of Al-Haouz over a
period of 18 months. The organization designed the project to enable women to
read, write, count, and provide health, social, and economic training. This activity
directly aligned with MEPI’s overarching objectives to promote and support
positive change in economic, political, education programs and the empowerment
of women in the Middle East and North Africa. However, the activity had no
direct relationship to the Mission’s education strategic objectives.




               Photograph taken by Regional Inspector General/Cairo office
               on October 22, 2004, of a beneficiary of the Women’s Literacy
               Program – Marrakech, Morocco




                                                                                 11
Are USAID/Morocco’s MEPI activities meeting their objectives?

Although we were unable to determine whether USAID/Morocco’s MEPI
activities were meeting their objectives, we observed five MEPI activities where
the recipients had made progress in accomplishing specific tasks outlined within
the statements of work of the individual awards. Furthermore, the recipient
designed work plans with specific tasks supporting the expected outputs of the
award. The accomplishments included:

   •   Providing financial support for 100 girls for three years to complete
       middle school. Scholarships provided for living quarters, school supplies,
       computers and computer training.
   •   Providing financial support to expand the promotion of women’s human
       rights in rural areas and small cities in Morocco.
   •   Fostering joint venture and investment relationships between U.S. and
       Moroccan companies.
   •   Providing literacy training and basic business skills training to women in
       Morocco.
   •   Planning and developing new tourism products (tour packages) in the rural
       regions of Morocco.

Even though we were able to assess if specific tasks within an activity were
accomplished on a case-by-case basis, this was not sufficient to determine if the
MEPI activities were meeting the overall objectives they were intended to
accomplish as outlined within the strategic objective the activity supported, or the
broad goals stated within the agreement documents. To make this determination,
the following events need to occur :

Need to Establish Performance Indicators

Six of 17 activities did not have defined performance indicators to measure
expected results. As a result, USAID/Morocco implemented six activities where
the impact of the activity could not be assessed. According to USAID Automated
Directive System 203.1, operating units should assess the impact of an activity.
However, the necessary attributes to measure results were not defined within the
six MEPI activities because, according to USAID officials, the Department of
State did not manage by objectives and, therefore, did not have performance
indicators to measure the activity results against expected results. Because the
Department of State assigned the award and implementation of these specific
activities to USAID/Morocco, we are not recommending corrective action.

USAID/Morocco was responsible for awarding and implementing six activities
which did not directly link to the Mission’s strategic objectives. The Department


                                                                                 12
of State assigned the award and implementation of these specific activities to
USAID/Morocco.        According to U.S. Embassy representatives in Rabat,
Morocco, the Department of State did not define performance indicators for
measuring achievement of MEPI’s broad objectives. Under USAID’s policy
directives, operating units should have defined what the activity was intended to
accomplish, how the various inputs should work together to achieve the desired
results, and how the results would be measured. However, the Department of
State did not operate under this same process. Therefore, in six instances where
the activities were not integrated within the strategic plan, there were no means
provided to measure results.

For example, under a rural development project, the Department of State
identified funding to implement a tree planting activity, donating fruit-bearing
trees to rural families and associations in areas potentially affected by the Free
Trade Agreement. The Department of State allocated $300,000 for this project
and assigned the award and administration of this activity to USAID/Morocco.
According to the award agreement, the long-term goal of this project was to help
up to 40 selected rural communities increase their incomes and access to new
agricultural markets. However, USAID did not identify indicators to measure the
achievement of this long term goal. The recipient completed the project, and the
trees were planted. However, USAID/Morocco will not continue to monitor or
assess the impact of this project.

Need for Activities to Be Further Along

USAID’s Automated Directive System 203.3.2 addresses how management units
are to measure strategic objective results. It says that results data may not be
available for performance management purposes early in the life of a strategic
objective. This was the situation in USAID/Morocco as the Mission’s strategic
objectives under economic growth, democracy and governance, and education
were in beginning stages of implementation. Therefore, we could not determine
the impact of MEPI activities incorporated as part of the Mission’s country
strategic objectives.

USAID/Morocco integrated 11 of the 17 activities within its country strategic
plan comprised of three strategic objectives approved in January 2004. As of
September 30, 2004, USAID/Morocco had no t awarded or started three activities
totaling $4.2 million because USAID/Morocco programmed these funds to assist
in implementing new strategic objectives starting in fiscal year 2005. Of the $4.2
million, USAID/Morocco planned to use $1 million in its integrated agribusiness
and agriculture project, $1.2 million for the new democracy and governance
program, and $2.0 million for the Mission’s revised education program. As of
September 30, 2004, these activities were at various stages in the pre-award
phase. Therefore, it was premature to make a determination on the results of this
funding.




                                                                               13
USAID/Morocco had implemented the remaining 8 of the 11 activities as of
September 30, 2004. These eight activities were supporting interim objectives
that were all in early stages of implementation. Therefore, we could not make an
assessment if activities were achieving their strategic objectives.

Need to Improve Monitoring and Data Quality

The validity of the performance data submitted by the implementers is dependent
on the mission’s controls for monitoring and evaluating the accuracy of the data.
According to USAID’s Automated Directive System 202.3.6, monitoring the
quality and timeliness of outputs produced by implementers is a major task of
cognizant technical officers and strategic objective teams.                 However,
USAID/Morocco did not monitor the implementer’s outputs for the USAID
funded activities under MEPI. USAID/Morocco said that staffing shortfalls have
contributed to its inability to monitor the quality and timeliness of the outputs.

Based on the review of 12 of the 17 Cognizant Technical Officer files for MEPI
activities under USAID/Morocco’s responsibility, the Mission did not document
when the Cognizant Technical Officers conducted site visits. Furthermore,
activity files did not document the extent of the Mission’s review of the quality of
the data reported by the implementers in their quarterly performance reports.

According to USAID/Morocco, its reduced staffing levels have not been adequate
to manage the increased funding coupled with the increase in management units
brought on by MEPI.         The staffing shortages have directly impacted
USAID/Morocco’s ability to monitor and evaluate the quality of the data reported
by MEPI implementers, increasing the risk of reliance on incorrect information.
Furthermore, the reduced staffing levels have prevented Cognizant Technical
Officers from monitoring the quality and timeliness of outputs produced by
implementing partners, as required in USAID’s Automated Directives
System 202.

The Office Inspector General conducted a risk assessment to assess the
vulnerabilities of the programs and activities of USAID/Morocco after a
reduction- in- force. In the October 6, 2004, report (Report No. 7-608-05-001-S),
the Office of Inspector General judged the risk exposure for the Mission’s
program office as high, concluding that the program objectives for this function
were more vulnerable to not being achieved or to experiencing irregularities.

During discussions with USAID/Morocco, the Director addressed the need to
seek other alternatives to evaluate and monitor USAID/Morocco managed
activities. One approach discussed was the possibility of contracting for the
services until staffing shortages are remedied.




                                                                                 14
                We agree that the Mission needs to take appropriate action to ensure that
                monitoring and evaluation of USAID/Morocco’s programs are conducted in a
                timely fashion. Therefore, we recommend the following:

                       Recommendation No. 1: We recommend that USAID/Morocco
                       implement alternative approaches to evaluate and monitor
                       USAID/Morocco Middle East Partnership Initiative managed
                       activities to verify that performance results reported by the
                       implementers are accurate.


Other Matters   During the course of the audit, we identified other issues impacting
                USAID/Morocco’s effectiveness in managing MEPI activities in addition to its
                overall development program. These issues, however, cannot be resolved at the
                Mission management’s level but nevertheless warrant discussion for action at the
                appropriate levels.

                   •   According to USAID/Morocco representatives, it has experienced
                       instances when the Department of State and USAID made award decisions
                       without the involvement or agreement from USAID/Morocco’s
                       government partners and the private sector.
                   •   The lack of a centralized real-time tracking mechanism for MEPI activities
                       has resulted in USAID/Morocco spending an inordinate amount of time
                       attempting to reconcile reports and gather the most updated information
                       for purposes of responding to MEPI, Embassy, and Washington requests.
                   •   According to USAID/Morocco representatives, USAID/Washington and
                       the Department of State have not always notified USAID/Morocco when
                       they awarded regional activities taking place within Morocco. In these
                       cases, USAID/Morocco was not aware if it was responsible for aspects of
                       the programs or if the programs possibly overlapped or conflicted with its
                       existing projects.
                   •   USAID/Morocco has experienced problems with implementers who are
                       awarded activities through USAID/Washington or the Department of
                       State. The problems arose when the implementers did not have a
                       counterpart within the Government of Morocco Ministry to provide the
                       necessary support to start up business operations. As a result, the
                       implementers have contacted USAID/Morocco for assistance. However,
                       because these activities do not fall under the USAID/Morocco’s bi- lateral
                       agreement with the Government of Morocco, the Mission has had
                       difficulty providing assistance.




                                                                                              15
Evaluation of    In its response to the draft report, USAID/Morocco agreed that more monitoring
Management       and evaluation of MEPI activities would result in better management by
                 objectives. USAID/Morocco commented that to meet the recommendation, it
Comments
                 would procure the services of an expert in monitoring and evaluation who would
                select discrete and measurable indicators based on the proposals and work plans
                and work with MEPI implementers to report quarterly against these indicators.
                Furthermore, the consultant could perform the data quality assessment based on
                risk factors to test selected reporting data for accuracy.

                Based on the action the Mission took to address the recommendation, we
                concluded that management decision had been made. When this action is
                completed, please coordinate final action on the recommendation with USAID’s
                Office of Management Planning and Innovation (M/MPI).




                                                                                            16
                                                                                    Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/Cairo conducted this audit in accordance with
              generally accepted government auditing standards. We performed the audit at
              USAID/Morocco in Rabat, Morocco and conducted the fieldwork between
              October 12 and October 28, 2004. We conducted site visits to various points in
              Central Morocco to observe activities supporting the Middle East Partnership
              Initiative (MEPI).

              The scope of this audit included an assessment of management controls of
              USAID/Morocco to plan, manage, and monitor the MEPI activities. Specifically,
              we examined the following significant management controls for: (1) integrating
              MEPI activities into the Mission’s country strategic plan; (2) establishing the
              objectives for each of the MEPI awarded activities; (3) designing the activity
              work plans, (4) reviewing performance indicators where they existed, and (5)
              monitoring the recipients’ performance.

              The Office of Inspector General had not performed prior audits of these activities.
              At the time of our field work, USAID/Morocco was responsible for the
              management of 17 activities. Our audit covered the period from September 2002
              through September 2004, during which fiscal years 2002 and 2003 USAID
              funding was committed for MEPI activities in Morocco. The scope of our audit
              included $12,459,000 of USAID Economic Support funds which
              USAID/Morocco programmed for MEPI under its three strategic objectives.
              Specifically, USAID/Morocco programmed $6.2 million to support the economic
              growth, $3.3 million to support the democracy and governance, and $2.9 million
              to support the education objectives.

              Methodology

              We interviewed USAID/Morocco representatives from each of the strategic
              objective teams and the program office. The purpose of these interviews was to
              gain an understanding of how the teams identified the specific requirements to
              incorporate into activities supporting MEPI and how the Mission integrated these
              activities as part of it’s overall strategic plan.

              We judgmentally selected 12 of the 17 activity files to review the
              USAID/Morocco managed activities. For each of the activities we: 1) reviewed
              the objectives outlined in the agreements and made an assessment if the
              objectives, as described, linked to the Mission’s strategic objectives; and 2)
              reviewed the work plans and made an assessment if the work plans, as defined,
              would accomplish the stated objectives. We judgmentally selected activities
              within each of the strategic objectives to conduct further testing. Our judgmental
              selection was based on a decision to select activities from each of the three



                                                                                              17
strategic objectives representing 50 percent of the total value of the funds
supporting MEPI activities. Based on these criteria, we selected 8 of the 12
activities and reviewed the performance reports to assess the implementers’ report
on their progress. We also reviewed the correspondence to determine the extent
of the Cogniza nt Technical Officer’s involvement in monitoring and managing
the activity.

We did not set a materiality threshold to answer the second audit objective as the
nature of the audit did not lend itself to the establishment of such a threshold.




                                                                               18
                                                                                            Appendix II


Management
Comments


                                                                      DATE: February 17, 2005


MEMORANDUM

TO:                   Regional Inspector General/Cairo, David H. Pritchard

FROM:                 Monica Stein-Olson, Mission Director, USAID/Morocco /s/

SUBJECT:              Response to RIG/Cairo’s Draft Report on Audit of USAID/Morocco’s
                      Management of activities Under the Middle East Partnership Initiative
                      (6-608-05-00X-P)

       Recommendation No. 1:

       We recommend that US AID/Morocco implement alternative approaches to conduct
       monitoring and evaluation of the Middle East Partnership Initiative activities to verify
       that performance results reported by the implementers are accurate.

USAID/Morocco agrees that more monitoring and evaluation of MEPI activities, including verification
of a sample of performance results, will result in better management by objectives. We want to thank
RIG/Cairo for recognizing that MEPI is a unique partnership with the Department of State and that the
development and management of assistance programs is not designed to mirror USAID’s development
activities including planning, monitoring and evaluation. Further, since both RIG/Dakar and RIG/Cairo
have highlighted and understand the limited staff at USAID/Morocco, and in the face of a rapidly
growing program, we appreciate the recommendation calling for the use of alternative approaches.

To meet this recommendation USAID/Morocco agreed on a management decision to procure the
services of an expert in monitoring and evaluation who will select discrete and measurable indicators
based on the proposals and work plans and work with MEPI implementers to report quarterly against
these indicators. Furthermore, the consultant can perform the data quality assessment based on risk
factors to test selected reporting data for accuracy per Mission Orders 501 and 502.




                                                                                                        19
